   ---.------.-\"   ~_,..,-- ~-... -..   ---   eel   _,~


                     .   'i
                                  /




                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

TO: AlGI                 File Number: 194050024                                      Date: 13 March 2002

Subject: Closeout Memo                                                                       Page 1 of 1


       There was no closeout written at the time this case was closed. The following information was
       extracted from the file in conformance with standard closeout documents.

        An NSF division l informed our office that the subjece was alleged to have violated the Procurement
        Integrity Act. A compant dropped $120,000 (30%) from their bid to go from highest bidder to
        lowest bidder for a particular NSF contract. We determined that the company acted upon
        procurement information provided by an NSF employee. The company agrees to a 3-year voluntary
        debarment and a $2,000.00 civil penalty. Criminal prosecution was declined.

        Accordingly this case is closed.




                          Prepared by:                         Cleared by:

                         Agent:            Attorney:         Supervisor:     AlGI
   Name:



 Signature &
    date:

       OIG-02-2
               AUG 23 '94 15:08
    .
                                        ALEX lJA
                                                                                     PRGE.02
,




               This Release and Settlement Agreement ("Agreement") is m.ade
         and entered into this t!!/!Iday of August 1994, by and between the

         UNITED STATES OF AMERICA ("United. states")                    I   through the United

         states Attorney for the Eastern District of Virginia,                         and DR.


                                       STATEMENT 07            ~ACT8

         1.                                     ,   is the
                                                                     ot the National Science
        Foundation    ('INSF").       on April       13,       1993, '-"SUbJll1tted a
        memorandum to the Division of Grants and contracts (later changed
        to the Division of Contracts, Policy, and Oversight) requesting
        that necessary action be taken to prepare -a Request for Proposals
        (ltRFpll)      for        a                                  contract       with       a
        marketing/communication/design firm.                   On   Dece~er   16, 1993, RFP

                was issued.           In response to that . . twelve bids                  were
        received by   clo~inq     time, 3:00 p.m., January 18, 1994.


        2.                                                      submitted a bid in response
                                                                    is president and owner of

                     had provided                      services to                 since 1990,
        under various small contracts.              On February i, 1994, a Technical
        Review Panel determined four bidder. were in the competitive range,
        inclUding.


        3.    Between February 9 and February 221 1 9 9 4 , " learned tbat




                                            "          ,   .
                  AUG 23 '94 15:08               RLEX VR
..                                                                                               PAGE.03




      - . . a s in the competitive ranCiJej                       t h a t " bid va. roughly
      $100,000 higher than the lowest price bidder;                           and that the lowest
      prIce bid and                1IIIr bid were technically equivalent.
      4.         On February            Z2, 1994,     IIIIIIIII's notified that NSF's Office
      of     Budget           and       Financial     Accounting    had   co~itted               f~n4s         ~or

                              services and established accounts to pay ...... or work
      then being provided b y .                        Between the afternoon of February 22
      and February 25, 1994, ~e telephoned

      tell him the account had been established to pay ~ .


      5.         Dur lng that conversation _                      aleo told       -        -,    ------ - - -

      that .woUld soon be receiving a letter from NSF's contracts
     . Office      ~~·~~·~~~··~~~~-~~-fi~;ii;t··for th;p                                    ioontract~
     ~told Mr. _                                           t h a t " s bid vas "siqnitloantly"
      hi9her than another qualified bidder.                         D~ told Mr~
     _ _ that the qualified bidder may havB CI\lIil.J.tte~                            e\        "low-ball"
     bid, but that the lower bid was considered to be legiti.ate.                                             Dr.

     ~ad@ it                  clear that Mr ..IIIIIIIIIIIIII;~~.~               ~9 substantially
     lower his bid. if
           .~;
                                       It was    to be awarded the contract •


     6.          On March 4, 1994, the four bidders in the competitive range
     were        asked        to       respond   to   technical    and cost     questions.                     In
     response, on Karch 9, 1994,~8Ubmitted a revised bid reducing
                         ~   ..
     its bid       pr.tc~         by   ~118,215.




                                                        - 2 -




                                                                                                ._._._....   _--------
       AUG 23 '94 15:08     ALEX VA
                                                                     PfH:i!:;.04




 7.   On May 10, 1994, Dr. ""called. Mr. _                             and told
 him that·it looked U k . would be awarded the contract.


      NOW,    THEREFORE,   in consideration ot the Jlutual covenants
expressed berein, the parties do hereby agree as follows:


             t.


      1.1 Payment to the United states. Upon the date of execution
of this settlement aqreement    I       Dr. . . Bgrees that he will pay to
theUnlted states the sum ot $20,000.


      1.2    ~gReration. Dr . • ag-reea and promise$ that be will
cooperate fully and tr:uthfully with the United States, and provide
all information known to him relating directly or indirectly to all
areas of inquiry and investigation.                In that regard:
             a.   Dr • • aqrees to testify· truthfully and completely
at any grand juries, trials or other proceedings.
             b.    Dr . • aqrees to be reasonably available for
debriefinq and pre-trial
               ,.        conferences aA the United stateD IDlY
require.
             c.   Dr.". agrees to provide all documents, records,
~itin9'$    or materials of any kind in hia possession or under his
care, custody, or control relatinq directly or indirectly to all
areas of inquiry and invest'fci~tion.



                                    -   ·3 -




                                               I                                   I
      AUG 23 '94 15:139     ALEX VA                            PAGE.05




      1.3    HAnner and Method of ·Payment.     The peymentprovided for
 in subparaqraph 1.1 shall be as follows:
      (a)    A sinqle paymentot $10,000 shall be by cashier's or
certified check, payable to the u.s. DepartaeDt ot Juaticse,and
delivered upon exeoution of tbis Aqreement to:


            The United states Attorney's Office
            1101 Klnq street, suite 502
            Alexandria, Virqinia 22314
            Attn: Brian D. Killer
                   Assistant United states Attorney.

      (b)   The balance of $10,000 shall be by cashier's or certified
check, payable to the D.S. Department of Justioe, and delivered no
later than September 30, 1994, to:


            The United states Attorney's ortice
            1101 Xinq street, suite 502
            Alexandria, Vlrqinia 22314
            Attn: Brian D. Killer
                   Assistant united states Attorney.


     1.4    Cgnfession of Judgltumt.     In the.event that payment is not

received in full by September 30, 1994, Dr.lIII'bY this Aqreement
hereby waives any defense or bar in law or in fact to a suit
initiated by the United States arisinq out the matter. set rorth
herein.


            II.   OBLIGATIONS of THE UNITED STATES


     2.1 Beleases. In consideration of the aqreements and payments
                                 -    4- -
           RUG 23 '94 15:09          RLEX VR
                                                                      PRGE.laS
i.




      set forth herein, and, except tor such obliqations as are craatad
      by this Agreement, tbe united states tor itself, hereby waives,
      release. and promises to retrain from institutinq, prosecutinq or
     maintaininq any civil claim, action or suit, aqainst Dr.             ~based
     upon the actions described a);,ove in the stateJllent of Facts.
     Criminal   VL"Oeec:ut.ion r •   .,APtHna all matter. involved in the above
     StateDentof Facts has been declined.


                 III.    HIS~ELWANEOUS     PROVISIONS


          3.1   Entir§ Agreement.         This Agreement represents the entire
     agreement made between the partie, and the partie. shall bave no
     obligations except as expressed herein.


          3.2   Tax Liabil1ty.           Nothinq 1n this Aqreement iaintended
     to affect, nor sball the Aqreement be construed to affect, any
     liability Dr •....,bas or may have under the Internal Revenue Laws,
     Title 26 of the United states Code.


          3.3      ¥~nue    for      Enforcement.   Int,rRretotioD   or   Dispute
     B@solution.        Should any action to enforce or interpret this
     Agreement, or to resolve any dispute hereunder' be required, the
     parties acknowledqe th.e juri$dict1on of t.he federal courts and
     aqree that venue tor any such action shall be in the United states
     District Court for the Eastern Dist.rict of Vir9inia.



                                          - 5 -
         AUG 23·' 94     1 5 :1 0     ALE X VA                             PAGE.07




         3.4   Capacity to Execute Agreement.            Each party siqninq this
 Agreement in a representative oapacity warrants that he or she is
 duly authorized to do so.




                                By:
                                                               Attorney ..
                                       1101 King street, suite 502
                                       Alexandria, Virginia 22314
                                       (703) 706-3809


DATED:     f ~pff                      ATTORNEYS FOR THE UNITED STATES




                                      Washington, D.C.
                                      (202) 424-7500

                                      ATTORNEY   FOR _ _ _


DATED:    ~ '1 '2. Jq~

                                            - 6 -




                                                                     ...   -----_..   _------
·.
 ..  ~




                             RELEASE AND   SETTLEMENT AGREEMENT
              This Release and Settlement Agreemen~A" Agreement" l . is made
                                 ~          O«<~~.AY .
         and entered into this 1.:- day of -No"""eme~ 1994, by and between the
         UNITED STATES OF AMERICA ("United states"),        through the. United
         states Attorney for the Eastern District of Virginia,           and
                           and


              WHEREAS,   the united states      believes   it may have    certain
         statutory and other claims against Mr.                          .and_
         arising out of a bid. that ~bmitted to the National Science
         Foundation by January 18, 1994 in response to RFP                 ; and
              WHEREAS, Mr.                    an~eny any wrongdoing or any
         violation of any statute, regulation or common law, irltentionalor
         otherwise, and Mr.~nd_further maintain that any
         problems with respect to the bidding process were in no way their
         fault, but solely that of Dr.                 and the National Science
         Foundation; and
              WHEREAS, in order to avoid the needless burden and expense of .
         protracted litigation, and because the united States believes that
         it is in the public interest to settle any such disputes .with
         regard to its claims, the United States and Mr •
     •        ave .agreed to settle all such claims and differences,           and
     matters relating thereto, by virtue of this Agreement; and,
             WHEREAS,    in order to conclude this agreement I      the   United·
     states and Mr.                           1IItagree to the obligations set
     forth below;
-.


           NOW,    THEREFORE,   in consideration of the mutual             covenants

     expressed herein, the parties do hereby aqree as follows:



                  I.


           1.1 Payment to the united states. Upon the date of execution

     of this settlement agreement,        III   agrees that it will pay to the

     united states the sum of $2,000.



           1.2    Manner and Method of Payment.          The payment provided for

     in subparaqraph 1.1 shall be by cashier's or certified check,

     payable to the u.s.        Department of Justice,          and delivered upon

     execution of this Aqreement to:

                  The united states Attorney's Office
                  1101 King street, suit~ 502
                  Alexandria, Virginia 22314
                  Attn: Brian D. Miller
                         Assistant United states Attorney.


          1.3     Voluntary   ~xclusion   for Nonprocurement Awards.

                  a.     Under the terms of NSF's nonprocurement debarment

     regulation,       45 C.F.R. part 620,                                     have

     agreed to exclude themselves voluntarily from covered transactions.
                                                                                 '-

                  b.     _   will not submit any proposals to any agency of

     the Executive Branch of the united states government for a grant or
     . cooperative agreement until after three years from the date of this

     agreement.

                  c.                              will    not    be   an   applicant

     (principal investigator or co-principal investigator) or be among

                                          - 2 -
the senior, key, or supervisory personnel on a grant, contract, or

cooperative agreement with any agency of the Executive Branch of

the united states government until after three years from the date

of this agreement.

     1.4   voluntary Exclusion for Procurement Awards.

           a.                                          by   themselves

individually or by forming or acting through an affiliate, as that

term is defined in the Federal Acquisition Regulation, 48 C.F.R.

subpart 9.4,     agree not to solicit, bid on, or receive any federal

contract or. any federally-funded contract or subcontract until

after three years from the date of this agreement.

           b.                                agree that a violation of

the above provisions will constitute a        cause of so serious or

compelling a nature that it would affect the present responsibility

of                                   and therefore will be grounds for

debarment under 48 C.F.R. subpart 9.4.



           II.    OBLIGATIONS OF THE UNITED STATES



     2.1 Releases. In consideration of the agreements and payment

set forth herein, and, except for such obligations as are created

by this Agreement, the United States for itself, hereby waives,
releases and promises to refrain from instituting, prosecuting or
maintaining any civil claim, action or suit, against

                   based upon the actions of                       and

                    with respect to _ ' s    bid in response to the

                                 -   3 -
National science Foundation RFP                        .     Criminal prosecution
has heen declined in the Eastern District of Virginia.



            III.     MISCELLANEOUS PROVISIONS


     3.1    Entire Agreement.        This Agreement represents the entire
agreement made between the parties and the parties sliall have no
obligations except as expressed herein.


     3.2    Tax Liability.          Nothing in this Agreement is intended
to affect, nor shall the Agreement be construed to affect,                      any

liability"ndMr.                                    haye or may have under the
Internal Revenue Laws, Title 26 of the United States Code.


     3.3·     Venue    for     Enforce.ment.       Interpretation     or   Dispute
Resolution.        Should    any   action     to   enforce    or   ~pterpret   this
Agreement, or to resolve any dispute hereunder be required, the

parties acknowledge the jurisdiction of the federal courts and
agree that venue for any such action shall be" in the United States
District Court for the Eastern District of Virginia.


     3.4    Capacity to Execute Agreement.            Each party signing this
Agreement in a representative capacity warrants that he or she is
duly authorized to do so.


     3 .5   Succe~{sors
                  ,.    .    The parties agree that this Settlement


                                      - 4 -
Agreement shall inure to the benefit of and shall bind assignees,
sliccessors-in-interest,or transferees of the parties.



                    By:
                          Ass              states Attorney
                          1101 King street suite 502
                          Alexandria           22314




                          Spec al   states Attorney
                          1101 King502    ,
                          ~inia 22314

                                                  STATES
DATED:




DATED:




                   By:




DATED:   11r~



                                                              AND


                              - 5 -
